No. 19-626
In the Supreme Court of the United
__________________

States

ROBERT HUFF, JUSTIN MOHNEY AND
JEFF BRENEMAN,
Petitioners,
v.
MICHELE CHOATE, individually and on behalf of the
heirs of Deanne Choate and as Administrator of the
Estate of Deanne Choate
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

__________________

BRIEF IN OPPOSITION
__________________
JENNIFER J. PRICE
RICHARD F. LOMBARDO
MICHAEL F. BARZEE
Counsel of Record
SHAFFER LOMBARDO SHURIN, PC
2001 Wyandotte Street
Kansas City, Missouri 64108
(816) 931-0500
mbarzee@sls-law.com
Counsel for Respondent
December 16, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
In the decision below, the Tenth Circuit held that it
lacked appellate jurisdiction over two of the petitioners’
appeals, and granted qualified immunity as to the third
petitioner. The two petitioners, whose appeals were
dismissed, now seek this Court’s review of their two
merit-based questions that were not addressed by the
court below. The third petitioner seeks review on a
question whose answer would not alter the judgment
below. The questions presented in the petition are:
Question 1: In viewing the facts most favorable to
respondent, whether the Tenth Circuit’s “reckless
creation” theory, which may create liability where an
officer’s reckless conduct is immediately connected to a
suspect’s threat of force, should be barred because it
conflicts with Graham v. Connor regarding the manner
in which a claim of excessive force against an officer
should be determined and has been rejected by a few
Courts of Appeals.
Question 2: Whether, if the “reckless creation”
theory is upheld, the qualified immunity analysis must
be tailored to require a reviewing court to determine
whether every reasonable officer in the defendants’
position would have known that, (a) refraining from
physically restraining an emotionally disturbed and/or
intoxicated, suicidal person and (b) inviting her
multiple times to produce a gun, can result in
constitutional liability under the Fourth Amendment
where the encounter results in a later need to use force,
even though the officer’s use of force has not been found
to be objectively reasonable and there remain genuine

ii
issues of fact about a gun found in decedent’s bed after
the shooting.
Question 3: Despite this Court’s holding in Pearson
v. Callahan, 555 U.S. 223 (2009), should it be
mandatory for a Court of Appeals to rule on the basis
of lack of a constitutional violation when “a discussion
of why the relevant facts do not violate clearly
established law may make it apparent that in fact the
relevant facts do not make out a constitutional
violation at all.”

iii
STATEMENT OF RELATED PROCEEDINGS
The Tenth Circuit Court of Appeals’ unpublished
opinion (a) dismissing Officer Mohney’s and Officer
Huff’s appeal for lack of jurisdiction, and (b) granting
Officer Breneman’s Motion for Summary Judgment on
Respondent’s § 1983 claim on the basis of qualified
immunity may be found at 773 Fed. Appx. 484 (10th
Cir. 2019). See also Pet. App. 1a-8a.
Also unpublished is the District Court of Kansas’
Memorandum and Order denying Petitioners’ Motion
for Summary Judgment on the basis of qualified
immunity. Pet. App. 9a-25a.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
REASONS FOR DENYING THE WRIT . . . . . . . . . . 6
I.

This Writ completely ignores the Tenth
Circuit’s holding that it lacked jurisdiction
over Officer Mohney’s and Officer Huff’s
appeal. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

II.

This Writ does not further the purpose
of allowing interlocutory appeal after a
district court’s denial of a qualified immunity
claim. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.

This Court’s decisions in Mendez and
Sheehan are inapplicable to this case because
of the remaining genuine issues of fact
regarding decedent and the gun . . . . . . . . . . 13

IV.

No appeal right exists as to the third
question presented because the Tenth Circuit
did not address the reasonableness prong . . 15

V.

This case is a poor vehicle in which to
consider any alleged conflict between the
Courts of Appeals regarding pre-seizure
conduct . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

v
TABLE OF AUTHORITIES
CASES
Allen v. Muskogee,
119 F.3d 837 (10th Cir. 1997). . . . . . . . . . . . . 3, 10
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . . 4, 16, 17
Ashcroft v. Iqbal,
556 U.S. 662 (2009). . . . . . . . . . . . . . . . . . . . . . . . 6
CSX Transp., Inc. v. Alabama Dept. of Revenue,
562 U.S. 277 (2011). . . . . . . . . . . . . . . . . . . . . . . . 7
Casey v. City of Federal Heights,
509 F.3d 1278 (10th Cir. 2007). . . . . . . . . . . . . . 18
City & County of San Francisco v. Sheehan,
135 S. Ct. 1765 (2018). . . . . . . . . . . . . 4, 13, 14, 15
County of Los Angeles v. Mendez,
137 S. Ct. 1539 (2017). . . . . . . . . . . 3, 4, 13, 14, 15
Cutter v. Wilkinson,
544 U.S. 709 (2005) . . . . . . . . . . . . . . . . . . . . . . . 7
Estate of Larsen ex rel. Sturdivan v. Murr,
511 F.3d 1255 (10th Cir. 2008). . . . . . . . . . . . . . 15
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . 13, 18
Johnson v. Jones,
515 U.S. 304 (1995). . . . . . . . . . . . . . 1, 6, 8, 10, 11
McLane Co. v. EEOC,
137 S. Ct. 1159 (2017). . . . . . . . . . . . . . . . . . . . . . 7

vi
Mitchell v. Forsyth,
472 U.S. 511 (1985). . . . . . . . . . . . . . . . . . . passim
Pauly v. White,
874 F.3d 1197 (10th Cir. 2017). . . . . . . . . . . . . . 19
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . . 4, 16, 17
Plumhoff v. Rickard,
572 U.S. 765 (2014). . . . . . . . . . . . . . . . . . . . 3, 8, 9
Ralston v. Cannon,
884 F.3d 1060 (10th Cir. 2018). . . . . . . . . . . . . . 10
Romero v. Board of County Comm’rs,
60 F.3d 702 (10th Cir. 1995). . . . . . . . . . . . . . . . 10
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . 16, 17, 18
Scott v. Harris,
550 U.S. 372 (2007). . . . . . . . . . . . . . . . . . . . . . . 19
Tennessee v. Gardner,
471 U.S. 1 (1985). . . . . . . . . . . . . . . . . . . . . . . . . 21
Thomson v. Salt Lake County,
584 F.3d 1304 (10th Cir. 2009). . . . . . 3, 10 11, 21
CONSTITUTION
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . passim
RULE
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
INTRODUCTION
It is well established that only abstract legal issues
may be asserted on interlocutory appeal from a district
court’s denial of a qualified immunity claim. Mitchell v.
Forsyth, 472 U.S. 511, 530 (1985). This means that
orders denying qualified immunity are generally
improper for interlocutory appeal when the district
court’s order “determines only a question of evidence
sufficiency, i.e., which facts a party may, or may not, be
able to prove at trial.” Johnson v. Jones, 515 U.S. 304,
313 (1995) (internal quotations omitted).
In this case, the District Court denied the
Petitioners’ claim of qualified immunity on two
grounds. First, the District Court addressed the
reasonableness of Officer Mohney’s and Officer Huff’s
actions at the time they shot Deanne Choate
(“decedent”). Pet. App. 13a. On this issue, the District
Court held, “Because a question of fact remains
concerning whether decedent pointed a gun at the
officers, the Court cannot conclude as a matter of law
that, at the time of the shooting, Officer Mohney and
Officer Huff acted reasonably in firing on decedent.” Id.
at 14a.
The District Court next addressed whether the
officers’ conduct immediately connected to the use of
force recklessly created the need to use force. Id. In
addressing the officers’ pre-seizure conduct, it was
assumed the use of force at the time of the shooting
was reasonable. Id. (“[E]ven if the officers acted
reasonably at the exact moment of the shooting, they
recklessly created their need to use force[.]”). The
District Court then determined that “a jury could

2
reasonably find that defendant officers acted recklessly
immediately prior to the shooting and that such
conduct created any eventual need to use force against
decedent.” Id. at 16a. Petitioners appealed the District
Court’s denial of their qualified immunity claim. Id. at
1a.
On interlocutory appeal, the Tenth Circuit
dismissed Officer Mohney’s and Officer Huff’s appeal
for lack of jurisdiction because their arguments
regarding reasonableness and pre-seizure conduct were
“all premised on factual allegations outside the facts
that the District Court ruled a reasonable jury could
find.” Id. at 4a. As to Officer Breneman, the Tenth
Circuit held that he was entitled to qualified immunity
as to respondent’s § 1983 claim because respondent
failed to satisfy her “burden of identifying cases that
constitute clearly established law on these facts.” Id. at
8a.
Petitioners now seek certiorari review on three
questions—two of which relate to what petitioners have
identified as the “reckless creation” theory, and the
third question relates to whether Officer Breneman is
entitled to a finding that his actions did not constitute
a violation of decedent’s Fourth Amendment rights.
The first two questions presented by petitioners
relating to the “reckless creation” theory are not
properly before this Court for several reasons. First,
petitioners completely ignore the Tenth Circuit’s
holding that it lacked appellate jurisdiction over Officer
Mohney’s and Officer Huff’s interlocutory appeal. In
fact, none of their questions address the issue of
jurisdiction. See Pet. i-ii.
Without first finding

3
jurisdiction, this Court cannot decide whether to
address petitioners’ merit-based questions. See
Plumhoff v. Rickard, 572 U.S. 765 (2014) (finding first
that Court of Appeals had jurisdiction to review district
court’s order before determining that officers’ acted
reasonably in shooting suspect).
Second, the genuine issues of fact relating to the
gun preclude this Court from addressing the “reckless
creation” theory. There must first be a finding that
decedent threatened force before the officers’ preseizure conduct becomes relevant under the “reckless
creation” theory. Allen v. Muskogee, 119 F.3d 837, 840
(10th Cir. 1997); Thomson v. Salt Lake County, 584
F.3d 1304, 1320 (10th Cir. 2009). There has been no
finding that decedent threatened force before the
officers’ shot and killed her. See Pet. App. 11a-14a.
Third, neither of the first two questions presented
furthers the purpose of qualified immunity, which is to
protect public officials from liability and from standing
trial. Mitchell, 472 U.S. at 530. Indeed, none of the
questions address the District Court’s primary
holding—because there is a genuine issue of fact
regarding the gun, the District Court cannot conclude
as a matter of law that Officer Mohney and Officer
Huff acted reasonably when they shot decedent. See
Pet. i-ii. Thus, Officer Mohney and Officer Huff will be
subject to liability and will stand trial even if the writ
is granted.
Fourth, because there has been no finding that the
officers’ conduct was reasonable, this Court’s decision
in County of Los Angeles v. Mendez, 137 S. Ct. 1539

4
(2017) and City & County of San Francisco v. Sheehan,
135 S. Ct. 1765 (2018) is inapplicable.
Fifth, this case is a poor vehicle in which to address
the alleged conflict between the Courts of Appeals
because there remain genuine issues of fact relating to
the gun, and neither the District Court nor the Tenth
Circuit has found that Officer Mohney and Officer Huff
acted objectively reasonable in shooting decedent.
The final question presented by petitioners relating
to Officer Breneman’s actions is also not properly
presented to this Court for review. This Court has
recognized that no appeal right exists for petitioners’
third question because the Tenth Circuit did not
address the first prong—whether Officer Breneman’s
actions violated a constitutional right. See Pearson v.
Callahan, 555 U.S. 223, 240 (2009); see also Ashcroft v.
al-Kidd, 563 U.S. 731 (2011) (“When, however, a court
of appeals does address both prongs of qualifiedimmunity analysis, we have discretion to correct its
errors of each step.”). Had the Tenth Circuit
determined that Officer Breneman’s actions violated a
constitutional right but, nonetheless, granted him
qualified immunity, then Officer Breneman would have
a right to appeal the constitutional finding. See id.
However, without a specific finding by the Tenth
Circuit as to the first prong, the third question
presented is improper.
For these reasons, this Court should deny the
Petition for Writ of Certiorari.

5
STATEMENT OF THE CASE
On March 26, 2015, police officers for the City of
Gardner, Kansas, including Officers Robert Huff,
Justin Mohney, and Jeff Breneman, responded to a 911
call from a Gardner residence shared by decedent and
her boyfriend. Pet. App. 9a. The boyfriend made the
911 call and told the dispatcher that decedent had been
drinking, had fired a gun, and was possibly suicidal. Id.
at 9a. After arriving at the residence, the officers
removed the boyfriend from the residence and located
decedent in bed, naked and intoxicated or groggy. Id. at
2a. The officers asked decedent about the gun and
issued various commands, including inviting decedent
to produce the gun. Id.
Even though the officers’ training advised them to
physically restrain decedent and control the situation,
the officers opted not to physically restrain decedent
because she was naked. Id. at 2a, 15a. After several
minutes of interactions with decedent, including
multiple invitations to produce the gun, decedent
stated, “It’s right here.” Id. at 2a. After making this
statement, decedent did not remove the gun from
underneath the covers or point the gun at any of the
officers. Id. at 2a-3a.
Nevertheless, within a few seconds after decedent
made the statement about the gun, Officer Mohney and
Officer Huff opened fire on decedent. Id. Decedent died
from these gunshot wounds. Id. In deciding to shot
decedent, Officer Mohney and Officer Huff reacted to
decedent’s statement about the gun, even though on
multiple occasions the officers invited decedent to
produce the gun. Id. at 3a.

6
REASONS FOR DENYING THE WRIT
I.

This Writ completely ignores the Tenth
Circuit’s holding that it lacked jurisdiction
over Officer Mohney’s and Officer Huff’s
appeal.

Under the collateral order doctrine, a district court’s
denial of a claim of qualified immunity, to the extent
that it turns on an issue of law, is an appealable “final
decision.” Ashcroft v. Iqbal, 556 U.S. 662, 672 (2009).
But a district court’s denial of a qualified immunity
claim is not appealable if the district court’s order
determines whether or not the pretrial record sets forth
a “genuine” issue of fact for trial. Johnson, 515 U.S. at
319-20.
In this case, questions of fact remain surrounding
the fatal shooting of decedent, which questions
prohibited the District Court from concluding as a
matter of law that Officer Mohney and Officer Huff
acted reasonably when shooting and killing decedent.
See Pet. App. 14a. In other words, a jury could conclude
that Officer Mohney and Officer Huff acted
unreasonably when they shot decedent. See id. at 3a,
14a. Because of the genuine issues of fact, particularly
as to the gun, the Tenth Circuit dismissed Officer
Mohney’s and Officer Huff’s interlocutory appeal for
lack of jurisdiction. Id. at 4a (“Officer Mohney and
Officer Huff do not raise ‘abstract legal questions’
based on the facts identified by the district court, but
rather asks us, in essence ‘to canvass the record’ to
resolve ‘factual controversies that, before trial, may
seem nebulous’”) (internal citations omitted).

7
Officer Mohney and Officer Huff now seek review
from this Court not on the issue of jurisdiction, but on
merit-based issues that were never adjudicated by the
Tenth Circuit. This Court does not generally review
issues that have not been addressed by the Court of
Appeals below. See e.g., McLane Co. v. EEOC, 137
S. Ct. 1159, 1170 (2017); CSX Transp., Inc. v. Alabama
Dept. of Revenue, 562 U.S. 277, 284, n. 5 (2011); see also
Sup. Ct. R. 10 (“A petition for a writ of certiorari is
rarely granted when the asserted error consists of
erroneous factual findings or the misapplication of a
properly stated rule of law.”). In McLane, this Court
granted certiorari review to resolve a disagreement
amongst the Courts of Appeals as to whether a district
court’s decision to enforce or quash an EEOC subpoena
should be reviewed for abuse of discretion or de novo.
McLane, 137 S. Ct. at 1166. This Court ultimately
determined that a district court’s decision to enforce an
EEOC subpoena should be reviewed for abuse of
discretion, not de novo. Id. at 1170. The United States
also sought this Court’s review on the merits;
specifically, that the judgment below should be
affirmed because it was clear that the District Court
abused its discretion. Id. However, this Court declined
to decide this merit-based question, finding that this
Court is a “court of review, not of first, view.” Id.; see
also Cutter v. Wilkinson, 544 U.S. 709, 718, n. 7 (2005)
(holding “[b]ecause these defensive pleas were not
addressed by the Court of Appeals, and mindful that
we are a court of review, not of first review, we do not
consider them here”). Therefore, without the Tenth
Circuit addressing the very questions Officer Mohney
and Officer Huff now seek to be reviewed (i.e., their
pre-seizure conduct and the “reckless creation”

8
theory),1 this Court should not review these meritbased arguments for the first time on certiorari review.
Furthermore, in cases where the Court of Appeals
rules only on jurisdictional grounds, this Court
generally limits its review to the issue of
jurisdiction—it does not address merit-based
arguments. See, e.g., Johnson, 515 U.S. at 308-309
(granting certiorari review only to address the issue of
jurisdiction, as the Seventh Circuit dismissed the
appeal for lack of jurisdiction). Thus, while Officer
Mohney and Officer Huff could have petitioned this
Court to review the Tenth Circuit’s decision to dismiss
their appeal for lack of jurisdiction, but elected not to
do so, they cannot ignore the Tenth Circuit’s
jurisdictional holding in hopes this Court will grant
review solely on their merit-based questions.
Nevertheless, in rare cases, this Court may address
arguments that were not addressed by the below court,
if this Court finds that the below court had jurisdiction
over the claim. See, e.g., Mitchell, 472 U.S. at 530
(holding that where the Court of Appeals had
jurisdiction over the claim, it was “appropriate for our
immediate resolution” notwithstanding that it was not
addressed by the Court of Appeals”); see also Plumhoff,
572 U.S. at 773, 778 (finding that Court of Appeals had
jurisdiction to review district court’s order and
determined that officers’ acted reasonably in shooting

1

The term “reckless creation” is not even used in the Tenth
Circuit’s opinion. See Pet. App. 1a-8a. And the opinion does not
address the pre-seizure conduct of Officer Mohney and Officer
Huff. See id.

9
suspect).2 But Officer Mohney and Officer Huff
completely ignore the Tenth Circuit’s jurisdictional
holding and, in fact, do not even dispute this holding.
Accordingly, this Court should deny the Petition for
Writ of Certiorari.
Moreover, even if they had addressed the Tenth
Circuit’s jurisdictional finding, the Tenth Circuit
correctly held that it did not have jurisdiction over
Officer Mohney’s and Officer Huff’s appeal. The Tenth
Circuit held it lacked jurisdiction over Officer Mohney’s
and Officer Huff’s appeal because their arguments on
appeal were all premised on factual allegations outside
the facts that the District Court ruled a reasonable jury
could find. Pet. App. 4a. Indeed, all of Officer Mohney’s
and Officer Huff’s arguments on appeal centered on a
gun found (after the shooting) under the covers in
decedent’s bed. Id. at 3a-4a. As the Tenth Circuit
noted, “the jury could find that Ms. Choate never
removed her gun from under the covers of her bed and
the officers instead reacted to her statement about the
gun.” Id. at 3a.
Because of the factual uncertainty surrounding the
gun, the Tenth Circuit lacked jurisdiction on appeal as
to all of Officer Mohney’s and Officer Huff’s arguments

2

Notably, in Mitchell and Plumhoff, the Court’s determination
that the Court of Appeals had jurisdiction, and petitioner was
entitled to qualified immunity, essentially terminated the case
against petitioner. That is not the case here. Even if Officer
Mohney and Officer Huff are successful on their questions
presented to this Court, they will still stand trial as to whether
their use of deadly force was objectively reasonable.

10
on appeal,3 including the “reckless creation” arguments
they advance in this writ. Petitioners’ self-proclaimed
“reckless creation” theory only applies to “an officer’s
conduct prior to the [victim]’s threat of force if the
conduct is ‘immediately connected’ to the [victim]’s
threat of force” Allen, 119 F.3d at 840 (emphasis
added), quoting Romero v. Bd. of County Comm’rs, 60
F.3d 702, 705 n.5 (10th Cir. 1995). Even then, however,
the officer’s conduct prior to a victim threatening force
must “rise[] to the level of recklessness.” Thomson, 584
F.3d at 1320 (emphasis added).
With the District Court finding that a genuine issue
of fact remains as to whether decedent removed the
gun from under the covers and pointed the gun at an
officer, there was no factual finding that decedent
threatened an officer with force. Pet. App. at 2a-3a,
14a. Simply put, if a jury finds that decedent did not
raise the gun above the covers and point it at an officer,
then there was no threat of force by decedent. Without
a threat of force by decedent, the officers’ conduct
leading up to the shooting is irrelevant. See Allen, 119
F.3d at 840; Thomson, 584 F.3d at 1320. Of course,

3

The Tenth Circuit recently admonished practitioners to stop
flaunting the jurisdictional limitations set out in Johnson by
arguing matters that clearly rely on genuine issues of fact. Ralston
v. Cannon, 884 F.3d 1060 (10th Cir. 2018) (“It certainly
follows…that appeals like the instant one that flaunt the
jurisdictional limitations set out in Johnson serve only to delay the
administration of justice. That being said, this court expects
practitioners will be cognizant of, and faithful to, the jurisdictional
limitation set out in Johnson.”). The Tenth Circuit cited the
Ralston case in its opinion dismissing Officer Mohney’s and Officer
Huff’s appeal for lack of jurisdiction. Pet. App. 4a.

11
should a jury later determine that decedent threatened
force by pointing the gun at an officer then the preseizure conduct would become relevant, so long as it is
immediately connected to the threat of force. See id.
But this later scenario is not appropriate for
interlocutory appeal because of the genuine issues of
fact regarding the gun. See Johnson, 515 U.S. at 313,
316-320. Therefore, because the reasonableness inquiry
and the “reckless creation” theory are dependent upon
disputed facts relating to the gun, the Tenth Circuit
correctly dismissed Officer Mohney’s and Officer Huff’s
appeal for lack of jurisdiction. Accordingly, this Court
should deny the Petition for Writ of Certiorari.
II.

This Writ does not further the purpose of
allowing interlocutory appeal after a
district court’s denial of a qualified
immunity claim.

This Court noted in Johnson v. Jones that allowing
too many interlocutory appeals risks additional, and
unnecessary, appellate court work “when it brings
them appeals that, had the trial simply proceeded,
would have turned out to be unnecessary.” 515 U.S. at
309. Of course, an important purpose of qualified
immunity is to protect public officials, not simply from
liability, but also from standing trial. Mitchell, 472 U.S.
at 525-27. To further that purpose, public officials,
including police officers, are allowed to appeal a district
court’s denial of a claim of qualified immunity to the
extent that it turns on an issue of law. Id. at 530.
This writ would not further the purpose of qualified
immunity because, even a finding that Officer
Mohney’s and Officer Huff’s reckless pre-seizure

12
conduct may not be used in determining the
reasonableness in shooting decedent, such a finding
does not protect these officers from liability or standing
trial. As the District Court found, a jury could conclude
that Officer Mohney’s and Officer Huff’s actions in
shooting decedent were objectively unreasonable
without regard to their reckless pre-seizure conduct.
See Pet. App. 3a, 14a. In fact, the District Court’s
opinion first addressed whether Officer Mohney and
Officer Huff acted reasonably as a matter of law at the
time they shot and killed decedent. Id. at 13a-14a. To
this first question, the District Court found that it
could not conclude as a matter of law that, at the time
of the shooting, Officer Mohney and Officer Huff acted
reasonably in shooting decedent. Id. at 14a.
It was only after addressing the reasonableness
question that the District Court considered whether
the officers’ conduct prior to the shooting recklessly
created the need to use the force and, thus, acted
unreasonably in the totality of the circumstances. Id.
Even then, however, it was based upon the assumption
that Officer Mohney and Officer Huff acted reasonably
at the exact moment of the shooting. Id. (“[E]ven if the
officers acted reasonably at the exact moment of the
shooting, they recklessly created their need to use
force[.]”). As a result, the District Court’s finding on the
issue of the officers’ pre-shooting conduct was merely
an additional basis for denying the qualified immunity
claim and was based upon an assumption that Officer
Mohney and Officer Huff acted reasonably when they
shot decedent. See id. at 15a-16a. Thus, this writ does
not further the purpose of qualified immunity—to
protect public officials from liability and standing

13
trial—because this writ does not address the primary
holding of the District Court. Therefore, Officer
Mohney and Officer Huff will be subject to liability and
will stand trial, even if this writ is granted.
Accordingly, this Court should deny the Petition for
Writ of Certiorari.
III.

This Court’s decisions in Mendez and
Sheehan are inapplicable to this case
because of the remaining genuine issues of
fact regarding decedent and the gun.

The jurisdictional shortfalls of the writ are further
illustrated by petitioners’ reliance on County of Los
Angeles v. Mendez, 137 S. Ct. 1539 (2017) and City &
County of San Francisco v. Sheehan, 135 S. Ct. 1765
(2018) in arguing that the Tenth Circuit’s “reckless
creation” theory cannot stand in light of these
decisions.4 Pet. 6. Both of these cases are inapplicable
4

Petitioners also rely on Graham v. Connor, 490 U.S. 386 (1989)
to support their argument that the “reckless creation” theory is
inconsistent with this Court’s precedent. Pet. 6. In Graham, the
Court determined that an officer’s actions must be analyzed under
the “totality of the circumstances.” Id. at 396. Such an analysis,
however, would necessarily require this Court to consider (and
resolve) the genuine issues of fact regarding decedent and the gun.
Clearly any reasonableness analysis would require a fact finder to
determine whether decedent removed the gun from under the
covers and pointed the gun at an officer. Without such findings,
determining whether the “reckless creation” theory is consistent
with this Court’s decision in Graham would be purely academic
and require an unfounded assumption—that decedent removed the
gun from under the covers, pointed it at an officer, and threatened
the officers with it. Thus, as this case is currently constituted,
determining whether the “reckless creation” theory is consistent
with this Court’s decision in Graham is premature.

14
because of the remaining genuine issues of fact
regarding decedent and the gun.
In Mendez, this Court held:
Respondents do not attempt to defend the
provocation rule. Instead, they argue that the
judgment below should be affirmed under
Graham itself. Graham commands that an
officer’s use of force be assessed for
reasonableness under the “totality of the
circumstances.” […] On respondents’ view, that
means taking into account unreasonable police
conduct prior to the use of force that foreseeably
created the need to use it…All we hold today is
that once a use of force is deemed reasonable
under Graham, it may not be found
unreasonable by reference to some separate
constitutional violation.
Mendez, 137 S. Ct. at 1547, n.* (underline added).
Thus, the holding in Mendez is contingent upon an
initial determination that the use of force is
reasonable—a determination that has not been made
in this case by either the District Court or the Tenth
Circuit. See Pet. App. 3a-4a, 11a-14a.
The Sheehan case is also inapplicable to this case.
Under Sheehan, while this Court ultimately decided
the issue of qualified immunity on the clearly
established prong, this Court agreed with the Ninth
Circuit’s determination that the officers’ use of deadly
force was reasonable under the circumstances.
Sheehan, 135 S. Ct. at 1775 (holding “[w]e also agree
with the Ninth Circuit that after the officers opened

15
Sheehan’s door the second time, their use of force was
reasonable”). Here, neither the District Court nor
Tenth Circuit has concluded that Officer Mohney and
Officer Huff acted objectively reasonable in using
deadly force on decedent. Additionally, the District
Court and Tenth Circuit have not found that Officer
Mohney’s and Officer Huff’s alleged constitutional
violation was not clearly established at the time of the
shooting. To the contrary, it has been clearly
established for many years that an officer may not use
deadly force unless certain factors have been met. See
Graham, 490 U.S. at 396 (setting forth factors to
consider in determining whether force was reasonable);
Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d
1255 (10th Cir. 2008) (establishing factors to consider
when determining whether use of deadly force was
reasonable). Accordingly, without such findings by the
District Court or Tenth Circuit, this Court’s holding in
Sheehan is inapplicable to this case.
Therefore, Mendez and Sheehan are inapplicable to
this case because of the remaining genuine issues of
fact regarding decedent and the gun. Thus, this Court
should deny the Petition for Writ of Certiorari.
IV.

No appeal right exists as to the third
question presented because the Tenth
Circuit did not address the reasonableness
prong.

The third question presented also suffers from
jurisdictional defects like the other two questions
presented. In the third question presented, Officer
Breneman seeks a finding that his actions were
reasonable in that they did not violate decedent’s

16
Fourth Amendment rights.5 Pet. 28-29. But this Court
has recognized that no appeal right exists where the
Court of Appeals below did not address the
reasonableness prong. See Pearson, 555 U.S. at 240; see
also Ashcroft, 563 U.S. at 735 (“When, however, a court
of appeals does address both prongs of qualifiedimmunity analysis, we have discretion to correct its
errors of each step.”). Indeed, “[c]ourts should think
carefully before expending ‘scare judicial resources’ to
resolve difficult and novel questions of constitutional or
statutory interpretation that will have no effect on the
outcome of the case.” Ashcroft, 563 U.S. at 735;
Pearson, 555 U.S. at 237 (“Unnecessary litigation of
constitutional issues also wastes the parties’
resources.”).
In this case, the Tenth Circuit did not address
whether Officer Breneman’s actions violated decedent’s
constitutional rights. See Pet. App. 1a-4a. Rather, the
Tenth Circuit determined that Officer Breneman was
entitled to qualified immunity because Plaintiff failed
to satisfy “her burden of identifying cases that
constitute clearly established law on these facts.” Id. at
8a (internal quotations omitted). Had the Tenth Circuit
determined that Officer Breneman’s actions violated a
5

Notably, the first prong of Saucier that Officer Breneman seeks
a determination “is intended to further the development of
constitutional precedent.” Pearson, 555 U.S. at 237. However,
there is no such constitutional development where, as here, the
Tenth Circuit’s opinion has no precedential value. Id. at 819
(finding that opinions marked as not precedential fail to make a
meaningful contribution to the development of constitutional
development); Pet. App. 1a, n* (“This order and judgment is not
binding precedent…”).

17
constitutional right but, nonetheless, granted him
qualified immunity, then Officer Breneman would have
a right to appeal the constitutional finding. See
Pearson, 555 U.S. at 240; Ashcroft, 563 U.S. at 735.
Nevertheless, Officer Breneman encourages the
Court to engage in a mere academic exercise on the
abstract question of whether his conduct amounted to
a constitutional violation, a fact dependent inquiry,
when a Court of Appeals has already granted him
qualified immunity itself, which is “an immunity from
suit rather than a mere defense from liability.”
Mitchell, 472 U.S. at 527. This Court need not engage
in this academic exercise by wasting both scare judicial
resources and the parties’ resources. See Ashcroft, 563
U.S. at 735; Pearson, 555 U.S. at 237. This is
particularly true as the parties acknowledge that the
Tenth Circuit was not required to address both prongs
under Saucier v. Katz, 533 U.S. 194 (2001).6 See Pet. 12
(“focusing solely on the ‘clearly established’ prong of the
qualified immunity inquiry is not improper”). And no
such reasonableness finding will impact the outcome of
this case, as Officer Breneman is not subject to liability
under respondent’s § 1983 claim. Therefore, because no
appeal right has been recognized when a Court of
6

In Pearson, this Court ultimately held that the Saucier two-step
rule was no longer mandatory and that lower courts have
discretion in deciding upon which ground(s) qualified immunity is
appropriate. 555 U.S. at 227, 236. In making this determination,
this Court recognized that the two-step rule may still be beneficial,
id. at 236, but found “the judges of the district court and the courts
of appeals are in the best position to determine the order of
decision-making that will facilitate the fair and efficient
disposition of each case.” Id. at 242.

18
Appeals does not address both prongs under Saucier,
and the parties agree that a below court need not
address both prongs, this Court should deny the
Petition for Writ of Certiorari.
V.

This case is a poor vehicle in which to
consider any alleged conflict between the
Courts of Appeals regarding pre-seizure
conduct.

The Fourth Amendment forbids unreasonable
seizures, including the use of excessive force. Casey v.
City of Federal Heights, 509 F.3d 1278, 1281 (10th Cir.
2007). To determine whether the force used in a
particular case is excessive “requires a careful
balancing of the nature and quality of the intrusion on
the individual’s Fourth Amendment interests against
the countervailing governmental interests at stake.”
Graham, 490 U.S. at 396 (internal quotation mark
omitted). The ultimate question “is whether the
officers’ actions are objectively reasonable in light of
the facts and circumstances confronting them.” Id. at
397 (internal quotation marks omitted). This
determination “requires careful attention to the facts
and circumstances of each particular case, including
the severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
and others, and whether [s]he is actively resisting
arrest or attempting to evade arrest by flight.” Id. at
396.
The most disputed fact in this case is whether
decedent brought the gun above the covers and pointed

19
the gun at one of the officers.7 In fact, both the Tenth
Circuit and the District Court focused on the factual
dispute regarding the gun in their opinions. The Tenth
Circuit determined that, because there was a disputed
fact as to the gun, it lacked jurisdiction as to Officer
Huff’s and Officer Mohney’s appeal. Pet. App. 4a.
Indeed, the Tenth Circuit reviewed the officers’ body
cameras and found the footage to be unclear about a
gun and “far from satisfying the blatant-contradiction
standard for de novo appellate review.” Id.
In its Memorandum & Order denying Petitioners’
Motion for Summary Judgment as to qualified
immunity, the District Court concluded there remained
a genuine issue of material fact as to whether decedent
pointed a gun at the officers, thereby precluding the
court from finding as a matter of law that Officer
Mohney and Officer Huff acted reasonably in firing on
decedent. Id. at 14a. In making this determination, the
District Court looked at evidence in the record, viewing
the evidence in the light most favorable to the
nonmoving party. Scott v. Harris, 550 U.S. 372 (2007).
For example, the District Court found that the body
cameras of Officers Mohney, Huff and Breneman did
“not show decedent pointing a gun.” Id. at 13a. The
District Court further noted that Officer Breneman
testified he did not see a weapon, even though he was
7

This is true even though Tenth Circuit precedent has declined to
adopt a “per se” rule of objective reasonableness where a person
points a gun at a police officer. Pauly v. White, 874 F.3d 1197, 1271
(10th Cir. 2017) (holding “none of our cases have created a per se
rule of objective reasonableness where a person points a gun at a
police officer”).

20
only a couple of feet away from decedent when the
shooting started. Id. Additionally, the District Court
found that the gun was discovered under the covers by
decedent’s knee after the shooting. Id. Finally, the
District Court noted the officers’ inconsistencies in
their testimony about the gun, including their
perception of the positioning of decedent’s hands and
whether she held the gun with one or two hands. Id. at
13a-14a. Thus, the District Court concluded such
evidence supports the allegation that decedent “did not
in fact remove [the] gun from under the covers (and
that the officers may have instead reacted, for instance,
to decedent’s statement about the gun).” Id. at 14a.
Despite (a) the genuine issue of material fact
regarding whether decedent removed the gun from
underneath the covers and pointed the gun at an
officer, and (b) a lack of finding that Officer Mohney
and Officer Huff acted objectively reasonable when
they shot and killed decedent, Officer Mohney and
Officer Huff seek review on the unfounded assumption
that their actions in shooting decedent were objectively
reasonable. Pet. 5 (“This case presents questions of
whether law enforcement officers may be liable for
damages under § 1983 for shooting an emotionally
disturbed and/or intoxicated person, even if the
shooting is objectively reasonable at the exact moment
of the shooting, if a jury could conclude that bad tactics
or failure to adhere to police procedure ‘recklessly
created’ the later need to use deadly force.”) (underline
added).
However, should the trier of fact determine that
Officer Mohney and Officer Huff acted unreasonably in

21
shooting decedent then it is irrelevant whether their
conduct “immediately connected” to the shooting
recklessly created the need to use deadly force. See
Thomson, 584 F.3d at 1320 (holding first that the use
of force was not excessive before determining whether
the officers recklessly created the need to use deadly
force); cf Tennessee v. Gardner, 471 U.S. 1, 11 (1985)
(noting that the use of deadly force is not justified
“[w]here the suspect poses no immediate threat to the
officer and no threat to others”).
Simply put, Officer Mohney and Officer Huff seek to
put the proverbial cart before the horse by having this
Court consider Officer Mohney’s and Officer Huff’s preseizure conduct without first finding as a matter of law
that they acted reasonably in shooting decedent—a
finding that cannot be made without first resolving an
genuine issue of fact whether decedent removed the
gun from underneath the covers and pointed the gun at
an officer. Pet. App. 3a (“[T]he jury could find that Ms.
Choate never removed her gun from under the covers
of her bed and the officers instead reacted to her
statement about the gun”.). Therefore, because of the
genuine issues of fact, and absent a finding that Officer
Mohney and Officer Huff acted objectively reasonable
in shooting decedent, this case is a poor vehicle in
which to address the alleged conflict between the
Courts of Appeals. Accordingly, this Court should deny
the Petition for Writ of Certiorari.

22
CONCLUSION
For the reasons set forth above, this Court should
deny the Petition for Writ of Certiorari.
Respectfully Submitted,
Jennifer J. Price
Richard F. Lombardo
Michael F. Barzee
Counsel of Record
SHAFFER LOMBARDO SHURIN, PC
2001 Wyandotte Street
Kansas City, Missouri 64108
(816) 931-0500
mbarzee@sls-law.com
Counsel for Respondent

